CERTIFICATE OF SERVICE
No. 19-395
Christina Alessio
Petitioner,
v.
United Airlines, Inc.
Respondent.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue; Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Rehearing Petition of Christina Alessio, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Rebecca J. Bennett
Ogletree Deakins
127 Public Square
Suite 4100
Cleveland, OH 44114
(216) 241-6903
rebecca.bennett@ogletree.com
Counsel for United Airlines, Inc.

Dan Abramovich
December 19, 2019
SCP Tracking.: Alessio-1970 N.' Cleveland-Massillon Road-Cover TAN

i

